DOE/IG-APP-005




                    U.S. Department of Energy
                   Office of Inspector General

                     Planning for and Measuring
                 Office of Inspector General Results


  FY 2002 Annual Performance Report and
     FY 2003 Annual Performance Plan
       Inspector General’s Message

We are pleased to present the Office of Inspector General’s (OIG) consolidated
Fiscal Year 2002 Annual Performance Report and Fiscal Year 2003 Annual
Performance Plan. This document evaluates our actual Fiscal Year (FY) 2002
performance and establishes the performance goals and strategies we will
pursue in FY 2003 to fulfill our mission.

As mandated by the Inspector General Act, the OIG promotes the effective,
efficient, and economical operation of the Department of Energy’s programs
and operations, including the National Nuclear Security Administration (NNSA).
We continue to provide assistance to the Department and the Congress by
identifying opportunities to improve program performance and accountability,
achieve cost savings, and return hard dollars to the Federal Government. The
OIG also plays an important role in assisting the Department in implementing
the Government Performance and Results Act.

As we review our FY 2002 achievements and outline our FY 2003 performance
plans, we look to national events that have and may affect our role. Since the
tragic events of September 11, 2001, the OIG has significantly increased our
already substantial commitment to helping the Department identify and
evaluate systemic and situational vulnerabilities in the areas of cyber and
physical security, counterintelligence, nuclear materials management, and
critical infrastructure protection. Our FY 2003 Annual Performance Plan
continues this effort.

The OIG is committed to serving as a facilitator of management reform by
continuing to evaluate program performance in critical areas central to the
President’s Management Reform Agenda, as well as the Secretary’s priorities.

We look forward to addressing the challenges facing both our office and the
Department. This document serves as our roadmap for accomplishing our
mission and goals.


         Signed
Gregory H. Friedman
Inspector General
                          Our Vision and Mission
                                              Our Vision
To be a highly effective organization that promotes positive change by identifying opportunities for
                          To be a highly
improvements in the performance           effectiveoforganization
                                    and efficiency                that programs
                                                      the Department’s promotesand operations.
                         positive change by identifying opportunities for
                         improvements in the performance and efficiency of the
                         Department’s programs and operations.




                                              Our Mission
                            Promote the effective, efficient, and economical
                            operation of the Department of Energy and the
                            National Nuclear Security Administration, through
To be a highly effective organization that promotes positive change by identifying opportunities for
                            audits, investigations, inspections, and special reviews
improvements in the performance and efficiency of the Department’s programs and operations.
                            to detect and prevent waste, fraud, abuse, and
                            violations of law.


To be a highly effective organization that promotes positive change by identifying opportunities for
improvements in the performance and efficiency of the Department’s programs and operations.

                                        Our Strategic Goal
                    Operate a robust review program and provide timely performance
                    information and recommendations to facilitate the Department’s
                    efforts to:

                         1.   Implement the President’s Management Agenda;
                         2.   Resolve management challenges;
                         3.   Execute the Secretary’s priorities; and
                         4.   Ensure the integrity of the Federal and contractor workforce

                    while ensuring that the OIG completes statutory mandates, recovers
                    monies, and provides opportunities for savings.




              Goal 1                               Goal 2                            Goal 3
                                          Improve economy and               Support the Taxpayer.
      Promote the Management
                                          efficiency and reduce
      Agendas of the President,
                                          waste, fraud, and abuse
      Secretary and Congress.
                                          within the Department.


                                                  2
      Our Responsibilities and
              Authorities
As required by the Inspector General Act of 1978, as amended, the OIG:

      − Conducts independent and objective audits, investigations,
        inspections, and special inquiries;
      − Promotes economy, efficiency, and effectiveness;
      − Prevents and detects waste, fraud, and abuse;
      − Reviews pending legislation and regulations; and
      − Keeps the Secretary and Congress fully and currently informed.

In further fulfillment of its mission and goals, the OIG also performs a number
of functions mandated by other statutes, Executive orders, and regulations.

                        Other Legal Mandates

             ♦ Government Management Reform Act
             ♦ Government Information Security
               Reform Act
             ♦ Government Performance and Results
               Act
             ♦ Executive Order 12863, President’s
               Foreign Intelligence Advisory Board
             ♦ Executive Order 12333, United States
               Intelligence Activities
             ♦ National Defense Authorization Act for
               Fiscal Year 2000
             ♦ Annual Statement of Costs Incurred and
               Claimed Audits




                                       3
                                Our Organizational Structure
                                The OIG is organized into four major functional areas and a corporate
                                support office:

                                                   •        Office of Audit Services
                                                   •        Office of Investigations
                                                   •        Office of Inspections
                                                   •        Office of Program Review and Special Inquiries
                                                   •        Office of Resource Management


                                                                                             Inspector General
                                                                                                 -------------
                                                                                              Principal Deputy

                                                                                    Counsel
                                                                                 ___________
                                                                           Office of Program Review
                                                                               & Special Inquiries


                        Office of                                           Office of                                    Office of                                 Office of
                      Audit Services                                     Investigations                                 Inspections                                Resource
                                                                                                                                                                  Management


            Office of the          Office of                    Office of              Office of
            Deputy Asst          Planning and                Investigations           Technology             Capital     Eastern       Western        Office of Policy,        Office of
         Inspector General       Administration              Policy, Plans &            Crimes             Inspection   Inspection    Inspection     Human Resources         Operations and
         for Audit Services                                    Programs                                      Region       Region        Region        and Information          Financial
                                                                                                                                                        Resources             Resources

National Nuclear      Environmental      Science, Energy,         Eastern             Western
    Security             Audits          Technology and        Investigation        Investigation                                                   Human      Information      Financial
 Administration         Division         Financial Audits       Operations           Operations                                                    Resources   Resources       Resources
 Audits Division                             Division                                                                                               Division     Division       Division




                                In addition to the Washington, D.C. area, OIG offices are located at key
                                Department sites around the Nation.




                                                                                                         4
                           Human Capital
The OIG requires a highly trained and diverse workforce to carry out its
mission. The Office recruits professional auditors, criminal investigators,
inspectors, program analysts, and administrative support personnel. The
fundable Full-Time Equivalents (FTEs) for FY 2002 were 252. The projected
fundable FTEs for the OIG to accomplish the goals and objectives contained in
the FY 2003 Annual Performance Plan are 263.

In FY 2002, the OIG undertook an aggressive recruitment effort. Over 30 new
auditors and investigators were hired during the last two quarters of FY 2002.
Of the 30, 14 were women and 7 were minorities. The OIG took a number of
proactive steps that led to filling many of these positions with minorities,
including making visits to historically Black colleges and universities that have
significant minority enrollments. OIG staff also recruited at annual
conferences of the Women in Federal Law Enforcement and the National
Organization of Black Law Enforcement Executives. The OIG will continue to
build on these accomplishments and strengthen diversity in its workplace.




                                        5
           Our FY 2002 Accomplishments
This section describes the OIG’s FY 2002 accomplishments. The OIG
successfully achieved its FY 2002 goals and targets. In most instances, the OIG
exceeded its performance targets. During this period, the OIG had 10 major
goals with over 20 performance targets to measure its FY 2002
accomplishments. Following are the results:

                          FY 2002 General Goal

Promote the efficient, effective, and economical operation of the Department
of Energy, including the National Nuclear Security Administration.

             Performance Goal 1: Make recommendations
             for positive change in Department programs and
             operations through the issuance of reports.

             Assessment: Exceeded Goal



Performance Targets:

      •   Initiate at least 60 percent of audits planned for the year and
          replace those audits not started with more significant audits that
          identify time-sensitive issues needing review.

      •   Complete at least 90 percent of all audits within 12 months to
          provide timely information to Department management.

      •   Obtain at least 90 percent management compliance rate for
          recommendations made in investigative reports issued to
          Department management.

      •   Initiate at least 70 percent of inspections planned for the year and
          replace those not started with inspections having greater potential
          impact.

      •   Issue at least 10 inspection reports containing recommendations for
          positive change in Department and NNSA programs and operations.


                                       6
Accomplishments:

Each year, as part of the audit planning process, Department management,
other interested parties, and OIG staff are contacted and queried to identify
and prioritize audit opportunities. For the audits completed in FY 2002, 92
percent were completed within 12 months, to provide timely information to
Department management. Also, the OIG’s method of prioritizing helped the
Office succeed in initiating 70 percent of the audits planned for the year and
replace those not started with audits having greater potential impact or more
significant audits needing time-sensitive review. For example:

     − At the request of the Administrator, NNSA, the OIG reviewed NNSA’s
       efforts to construct the Tritium Extraction Facility at the Savannah
       River Site. Specifically, the review was conducted to determine
       whether the Tritium Extraction Facility Project was within cost,
       schedule, and technical scope. The OIG found that the Tritium
       Extraction Facility will cost substantially more than the planned $401
       million and, based on current progress, is unlikely to be completed by
       February 2006, as scheduled. The OIG determined that these baseline
       schedule and scope failures were due to the project team’s inability to
       make full use of available project management controls.

     − The OIG initiated a follow-on audit at the request of the Brookhaven
       Area Office to gauge the sufficiency of corrective actions to an OIG
       audit report issued in May 1999, “Health Physics Technician
       Subcontracts at Brookhaven National Laboratory.” The purpose of the
       review was to determine whether Brookhaven administered
       procurements in accordance with applicable regulations and its
       contract. The review showed that Brookhaven had initiated some
       improvements. However, in a number of cases, Brookhaven was still
       not providing the Department advance notice about high-dollar
       procurements, adequately justifying some noncompetitive
       procurements, or maintaining accurate data on small business
       contracts and purchases.

     − Based on information that the OIG received that raised concerns about
       the effectiveness and usefulness of the Advanced Vitrification System
       technology, a review was initiated to identify issues that could prevent
       successful deployment of the Advanced Vitrification System. The OIG
       concluded that there were a number of significant unresolved
       technical issues affecting the ability to develop and deploy the
       Advanced Vitrification System and that these challenges should be
       addressed before the Department funds additional research on the
       technology.




                                       7
The OIG received responses to 63 recommendations made in investigative
reports to management during FY 2002, with a 94 percent compliance rate.
Department management took administrative action against 29 individuals as a
result of OIG Administrative Reports to Management and obtained 19
debarments of contractors and individuals.

Examples of successes resulting from OIG investigative recommendations to
management include the following:

    − Ten subjects were debarred for 3 years from Government contracting.
      The subjects conspired to establish “shell” companies for the purpose
      of providing fraudulent invoices against a $2.8 million community
      development grant and cooperative agreement with the Department’s
      Savannah River Site.

    − A contractor reimbursed the Department $201,618 for travel and per
      diem costs improperly paid to one of its subcontractors.

    − The Department agreed to develop a plan to correct security
      weaknesses relating to computers connected remotely to Department
      networks at a National Laboratory.

    − The Department terminated the employment of an individual for
      downloading over 1,100 pornographic images onto a Government
      computer.

The OIG initiated 87 percent of the inspections planned for the year and
replaced those not started with inspections having greater potential impact.
The OIG issued 22 final reports, 12 of which contained recommendations for
positive change in Department and NNSA programs and operations. The
following are examples of outcomes from those recommendations:

    − The Department enhanced baseline cyber security measures to protect
      computerized employee personal information.

    − Lawrence Livermore National Laboratory developed corrective action
      plans to improve security and protective force operations at the site.

    − The Department performed a Nationwide review of the fresh pursuit
      policies and practices at all Department National Laboratories. The
      purpose of this review was to address inconsistencies at Department
      sites with respect to policies and practices pertaining to the “fresh
      pursuit” of fleeing suspected criminals in unauthorized possession of
      nuclear weapons, weapons components, or special nuclear material.




                                       8
          Performance Goal 2: Conduct audits and render an opinion
          as required by the Government Management Reform Act (GMRA)
          on the Department’s consolidated financial statements, system
          of internal controls, and compliance with laws and regulations;
          and conduct other audits required by law, regulation, or policy.

          Assessment: Exceeded Goal

Performance Target:

      •   Complete the required annual financial statement audits by
          designated due dates in the law.

Accomplishments:

The OIG completed the audit of the Department’s FY 2001 consolidated
financial statements and rendered an unqualified (clean) opinion on February
13, 2002, ahead of the March 1 statutory due date. As part of the review, four
reportable conditions in the Department’s system of internal controls were
identified: (1) the Department has made progress improving its performance
measurement reporting, but more remains to be done to satisfy the
requirements of the Government Performance and Results Act and related
Office of Management and Budget (OMB) guidance; (2) the Department has
certain network vulnerabilities and general access control weaknesses that
could affect unclassified information system security; (3) the Department’s
Western Area Power Administration did not uniformly perform reconciliations
and could not promptly prepare account analyses; and (4) the Department’s
Active Facilities Data Collection System contained inaccurate data, including
incorrect facility types and errors in reported square footage which, prior to
audit adjustment, overstated the active facilities environmental liability
estimate.

In addition, the OIG completed the required Federal Managers’ Financial
Integrity Act (FMFIA) evaluations and implemented the OMB requirements. The
review disclosed that the Department continued to carry out its internal
control program mandated by the FMFIA.


           Performance Goal 3: Investigate allegations of
           violations of criminal and civil Federal law, as well as
           serious administrative misconduct, in order to
           facilitate successful prosecutions and administrative
           actions that maximize recovery of public resources
           and deter future wrongdoing.

           Assessment: Met Goal


                                       9
Performance Targets:

      •   Obtain judicial and/or administrative action that facilitates positive
          change in Department programs and operations on at least 35
          percent of all cases investigated during the fiscal year.

      •   Obtain at least 70 percent acceptance rate on criminal and civil
          cases formally presented for prosecutorial consideration.

Accomplishments:

The OIG obtained judicial and/or administrative actions on 37 percent of all
cases investigated during the fiscal year and achieved a prosecutorial
acceptance rate of 82 percent. The OIG obtained 21 criminal indictments and
41 convictions, pretrial diversions, and civil judgments.

Examples of successes as a result of OIG investigations include:

     − Two subcontractors paid the Government a total of $4.7 million to
       resolve allegations that employees submitted false per diem claims for
       long-term temporary assignment to a Department facility.

     − An investigation determined that a contractor improperly stored
       contaminated waste in violation of the Resource Conservation and
       Recovery Act. During the course of the investigation the contractor’s
       parent company paid $14.5 million in remediation and disposal cost to
       clean up waste stored improperly.

     − A contractor employee was convicted for viewing and downloading
       pornographic images and videos depicting children.


           Performance Goal 4: Maintain investigative
           inter-agency and intra-agency cooperative efforts
           to combat fraud, waste, and abuse.

           Assessment: Met Goal



Performance Target:

      •   Ensure that at least 25 percent of all open cases during the fiscal
          year are task force/joint agency investigations.



                                       10
Accomplishments:

The OIG opened 139 cases during FY 2002, 26 percent of which were task force
agency investigations. The following are examples of successes from task
force/joint agency investigations:

    − A subcontractor paid the Department $800,000 and released its claim
      to approximately $148,000 in contract funds held by the Department.
      The investigation determined that the subcontractor improperly
      charged the Government for costs associated with the manufacturing
      of commercial products.

    − Three individuals confessed and pleaded guilty to separate computer
      intrusions at Department entities as a result of joint investigations with
      other Federal and State law enforcement agencies.

    − A contractor paid a fine of $84,957 to the Government for improper
      disposal of an environmental contaminant into the Emory River, which
      flows through the Department’s East Tennessee Technology Park. The
      contractor pleaded guilty and was sentenced to 12 months’ home
      confinement; 2 years’ supervised probation; and 300 community
      service hours.


                Performance Goal 5: Conduct proactive
                investigations focusing on areas most
                vulnerable to fraud, waste, and abuse within
                the Department, including the NNSA.

                Assessment: Exceeded Goal


Performance Targets:

      •   Conduct fraud awareness briefings every quarter with Department
          managers, program personnel, and contractors.

      •   Increase staff hours dedicated to proactive case development and
          investigations by 10 percent over the previous fiscal year.




                                      11
Accomplishments:

OIG investigative personnel conducted 29 fraud awareness briefings in FY 2002
with an average of 5 per quarter. These presentations are designed to discuss
the process for reporting fraud, waste, and abuse to the OIG and to highlight
priorities and initiatives of the Office of Investigations.

The OIG dedicated 5,952 hours to proactive case development during FY 2002.
This represents an increase of 49 percent in proactive work over the previous
fiscal year.

The following are investigative results from FY 2002 proactive Government
purchase card initiatives:

    − Obtained criminal convictions involving significant misuse and abuse of
      Government purchase cards. One contractor employee mischarged
      $138,000 for personal use and was sentenced to 13 months’
      incarceration, 3 years’ supervisory probation and ordered to pay
      restitution of $137,446. Two other subcontractor employees
      mischarged Government purchase cards in excess of $80,000. They
      were sentenced to home detention and probation. The Department
      has debarred three former contractor employees and two personal
      businesses from Government contracting for 3 years as a result of
      purchase card abuse.

    − Four other employees entered guilty pleas for Government purchase
      card misuse in the amounts of $37,000, $11,000, $10,000, and $2,000,
      respectively.

    − A “Lessons Learned” report that consolidated findings from over 20
      separate OIG reviews recommended that the Department’s
      Government purchase card program needs to: (1) ensure independent
      receipt and verification of goods and services; (2) include
      implementation policies and procedures for identifying unallowable
      and non-reimbursable costs; (3) ensure adherence to prescribed
      policies and procedures; and (4) improve purchase card issuance
      controls.

         Performance Goal 6: Focus performance reviews on
         those issues, programs and systems having the greatest
         potential impact on the protection or recovery of public
         resources; and make associated recommendations for
         positive change. This specifically includes evaluating the
         Department’s implementation of the Government
         Performance and Results Act.

         Assessment: Exceeded Goal
                                      12
Performance Targets:

      •   Ensure that at least 90 percent of performance audits incorporate
          approaches to evaluate performance measures and how they were
          applied.

      •   Complete at least 80 percent of management inspections within 12
          months.

      •   Initiate at least 70 percent of inspections planned for the year and
          replace those not started with inspections having greater potential
          impact.

Accomplishments:

Of the performance audits conducted in FY 2002, 100 percent included an
evaluation of performance measures and how they were applied. As stated
previously, the OIG focuses performance reviews on those programs having the
greatest potential for protection and recovery of public resources. The OIG
was able to assist the Department to analyze not only the operation of
programs considered the most serious management challenges facing the
Department, but also determine whether or not those programs were
effectively measuring their performance.

For example, in FY 2002, the OIG issued a report entitled “Environmental
Management Performance Measures” (IG-0561). In that report, the OIG
suggested that the Assistant Secretary for Environmental Management focus
corporate measures on overall program performance. Specifically,
performance measure mechanisms should be developed to: (1) supplement
existing corporate performance measures and provide information on overall
cost and schedule performance; and (2) capture changes in risk across
Environmental Management’s site cleanup activities.

The OIG initiated 87 percent of the inspections planned for the year and
replaced those not started with inspections having greater potential impact. In
addition, the OIG completed 82 percent of its management inspections within
12 months. During the year, the OIG focused a significant portion of its
resources on reviews of security and safety related topics. Although security
and safety have always been areas of emphasis, additional resources were
devoted to these areas in response to the events of September 11, 2001. The
OIG completed several followup inspections to determine whether the
Department was taking appropriate action on recommendations made in earlier
security-related inspection reports. Specific areas of review included: the
process for transmitting classified documents; the progress being made on
executing the Department’s Counterintelligence Implementation Plan;



                                       13
coordination activities with State, local, and tribal officials regarding
shipments of nuclear weapons, nuclear weapons components, and special
nuclear materials; and the export licensing process as it relates to foreign
national visits. The OIG found that the Department had made progress in
implementing the recommendations and made suggestions to enhance future
implementation activities. The following are examples of other inspection
findings during the year:

    − Over $2 million was unnecessarily spent by a Department site
      contractor to transport, upgrade, and store equipment that sat idle.

    − The Department needs to assure that sealed radioactive sources are
      properly controlled, inventoried, and leak tested in accordance with
      Federal rules and local site procedures.

    − A Value Engineering policy is needed that will meet the requirements
      of OMB Circular A-131 and is applicable to all Department systems,
      equipment, facilities, services, and supplies for the purpose of
      achieving essential functions at the lowest life-cycle cost.

    − Improvements are needed in the control of property at two inspected
      Department sites.


                Performance Goal 7: Conduct inspections of
                noncriminal allegations that enable the
                Department to hold employees and contractors
                accountable to the highest standards of honesty,
                objectivity, and integrity.

                  Assessment: Exceeded Goal


Performance Target:

        •   Complete at least 80 percent of allegation-based inspections within
            12 months.

Accomplishments:

The OIG completed 100 percent of its allegation-based inspections within 12
months. The following are examples of the results of allegation-based
inspections:




                                      14
    − Sandia National Laboratories issued trade secret licenses to 11
      companies since 1995 despite being advised both verbally and in
      writing over the course of the last 10 years of the Department’s policy
      prohibiting the licensing of trade secrets. In many instances, these
      licenses were issued without the Department’s knowledge. Sandia’s
      improper licensing activity may have resulted in the inappropriate
      collection of $617,422.

    − There was no legal basis for the Rocky Flats Field Office’s expenditure
      of $11,475 to pay for golf training for one employee and pilot training
      for three other employees.

    − There are opportunities for improvement in the overall security
      posture at the West Valley Demonstration Project.


                   Performance Goal 8: Conduct oversight of
                   Department intelligence programs, including the
                   National Nuclear Security Administration, as
                   required by Executive order.

                   Assessment: Met Goal


Performance Target:

      •   Provide OIG intelligence oversight reports to the Intelligence
          Oversight Board in accordance with the requirements of Executive
          Orders 12333 and 12863.

Accomplishment:

The OIG provided quarterly reports to the Intelligence Oversight Board within
required timeframes. The reports serve to inform the Intelligence Oversight
Board, which is part of the President’s Foreign Intelligence Advisory Board, of
Department/NNSA intelligence activities the Inspector General believes may be
unlawful or contrary to Executive order, Presidential directive, or Department
intelligence procedures.

            Performance Goal 9: Effectively process
            complaints/allegations channeled through the OIG
            Hotline.

            Assessment: Exceeded Goal



                                      15
Performance Targets:

      •   Enter into the database 80 percent of the complaints warranting
          predication within 1 week of being received.

      •   Refer at least 85 percent of allegations to management within 14
          days of the case being initiated after a referral decision has been
          made by the OIG.

During the year, the OIG Hotline received 962 complaints/allegations, 382 of
which warranted predication in the OIG database. Ninety-six percent of those
complaints were predicated within 1 week of being received. Also, 220
matters were referred to the Department or other agency management for
appropriate action, and 99 percent of those referrals were made within 14 days
of the case being initiated after a referral decision was made by the OIG.


             Performance Goal 10: Align the organization in the
             most efficient, cost effective manner necessary to
             achieve the OIG legislative mission.

             Assessment: Met Goal



Performance Targets:

      •   Reduce the number of and align managers based on organizational
          analyses and downsizing.

      •   Lower the decision-making levels.

      •   Limit any new hiring to front-line employees.

      •   Increase the use of automation in work processes.

Accomplishments:

The OIG conducted a major reorganization in FY 2002 that significantly changed
the delivery of audit services to customers. The Office of Audit Services was
realigned along programmatic lines from a regional structure. This change
supports a balance between single-site and multi-site audits, as well as
ensuring adequate coverage in major programmatic areas; specifically NNSA,
environmental, and the combined areas of science, energy, technology and



                                       16
financial statements. While this reorganization did not reduce the number of
managers, it resulted in a comprehensive delivery of services that addresses
the Secretary’s mission priorities.

Based on the reorganization, the Deputy Assistant Inspector General for Audit
Services was delegated the authority to review and issue all draft audit reports.
This delegation will streamline the audit report process to allow the Assistant
Inspector General for Audit Services’ attention to be focused on the final
report.

The OIG conducted an extensive recruitment effort through public
announcements, Governmentwide announcements, and college fairs and visits.
The OIG hired 32 new employees during FY 2002, all as front-line employees.

The OIG has continued to use automation in streamlining its work processes.
Additionally, efforts to secure OIG sensitive data are ongoing. The OIG began
participation in a pilot program to use biometrics as a user authentication for
access to the OIG network system. The use of ENTRUST encryption was also
expanded to all field computers.




                                       17
                Organizational Restructuring

               Budget and Performance
                    Integration

                                             Appropriation for
                                               FY 2003 (in
                          Office                 millions)

                     Office of Inspector             $37.7
                          General




Budget and performance integration is a key Governmentwide initiative in the
President's Management Agenda. The OIG has aligned its planning, budget and
performance measurement functions within the Office of Resource
Management. This alignment has allowed the OIG to better integrate budget
and performance information and has moved the office closer to its goal of
developing a performance-based budget. Furthermore, this approach enables
the OIG to manage the development of budget and performance information in
a more effective and streamlined manner. Over the past year, the office
significantly improved and realigned the performance measures in its strategic
and annual plans to more closely quantify the results of the OIG's work. The
OIG will continue its strong commitment toward achieving this important
initiative and further refine and strengthen the integration of its budget and
performance goals.




                                      18
Below is the current matrix reflecting our progress.
Department                                 Outcomes                              Outputs
Business Lines
                                                                                 Target         Estimated
                                                                                  2003           FY 2003
                                                                                Reviews*           Cost
                                                                                                   ($ in
                                                                                                 millions)
National Security                                                                   78            $11.9
                     Promote the safety and reliability of the nuclear
                     stockpile.
                     Assess the Department’s progress in addressing and
                     resolving the threat from weapons of mass
                     destruction.
                     Promote effective intelligence and
                     counterintelligence programs.
                     Promote security and safety within Department
                     programs.
Environmental                                                                       20             $3.1
Management
                     Promote implementing environmental cleanup faster
                     and cheaper.
                     Contribute to the success of the Department
                     completing the characterization of the Yucca
                     Mountain site for permanent storage of the Nation’s
                     spent nuclear fuel.
                     Assess the Department’s management of uranium
                     enrichment and civilian nuclear power development.
Energy/Science                                                                      16             $2.4
                     Contribute to the protection of the critical energy
                     infrastructure.
                     Promote the implementation of the President’s
                     National Energy Plan.
                     Assist in directing research and development that
                     directly relate to and support the missions of the
                     Department and aid in ensuring greater application of
                     mature technologies.
Corporate                                                                           90            $20.3
Management
                     Contribute to the effectiveness of the Department’s
                     financial management.
                     Assure the American public that the Department is
                     fiscally responsible in carrying out its mission.
                     Promote effective contract management.
                     Foster responsiveness to complaints and allegations
                     from the Department and OIG customers.
                     Ensure the Department has metrics in place and uses
                     them to manage its programs and activities
                     effectively.
                     Promote the safety and health of the Department’s
                     workforce.
Total                                                                              204            $37.7
*Note: Due to the nature of the work performed by the Office of Investigations, quantifying the number
of investigations planned is not possible. However, results from the investigations will be included in the
FY 2003 reporting figures.




                                                    19
             Critical Outside Influences
Numerous external factors could affect the achievement of the OIG goals and
objectives. Specifically, these factors could create a significant impact on
workloads, formulating budgets, assessing organizational structure, evaluating
procedures, and establishing priorities. Some examples include:

Budget. Thus far in FY 2003, the OIG has been operating under a continuing
resolution at the FY 2002 appropriation level. This reduced funding has
negatively impacted the progress the Office would anticipate accomplishing
otherwise. This annual plan assumes that the Office will shortly receive the
anticipated FY 2003 funding level. The OIG expects to increase its reviews and
investigations accordingly. However, should a continuing resolution remain in
effect for longer than 4 months, the Office may be unable to complete the
reviews reflected in this FY 2003 annual plan. Consequently, meeting
performance goals may not be achievable in all cases.

Secretarial/Congressional Priorities. Unplanned, resource intensive, but
nevertheless important, quick turnaround requests by the Secretary and
Congress could impact on planned work and thereby affect progress towards
achieving the OIG goals and objectives.

New Statutory Requirements. New legislative mandates and unfunded audit,
investigative, inspection, or inquiry requirements would have a direct impact
on the OIG strategic plan. Specifically, new statutory requirements could
divert resources away from other critical areas, including evaluating the
performance of the Department’s programs and operations as they relate to
the President’s Management Agenda, the Secretary’s priorities, and the most
serious management challenges facing the Department. The OIG goals and
objectives are built around many of these areas.

Recruitment and Retention. A number of factors could significantly impact
the OIG’s ability to attract and retain a skilled and diverse workforce. The OIG
consists of highly trained professional staff whose skills are in demand in both
the public and private sectors. Consequently, vacancies are often difficult and
time consuming to fill. Since September 11, 2001, the OIG faces even more
competition from many law enforcement agencies within the Federal
Government. For example, the Federal Bureau of Investigation has initiated a
hiring effort to fill 1,000 vacancies. In addition, the OIG will be competing
with the Transportation Security Administration, and the Department of
Homeland Security could attract talent away from the OIG.




                                       20
          Our Long-Term Plans
This portion of the Annual Performance Plan reflects the goals, objectives, and
strategies included in the OIG’s FY 2002 – 2007 Strategic Plan. During FY 2002, the
OIG devoted a considerable amount of resources to revise and streamline its
planning goals, strategies and objectives.


                  Goal 1: Promote the Management Agendas of
                  the President, Secretary, and Congress


      1. Objective: Conduct reviews seeking positive change in the Department
         relating to the implementation of the initiatives in the President’s
         Management Agenda, the Secretary’s Priorities, and the OIG-identified
         Management Challenges.

      Strategy:

      − Conduct reviews as outlined in the OIG annual plan relating to: (1) the
        President’s Management Agenda initiatives; (2) the Secretary’s
        Priorities; and (3) the OIG-identified Management Challenges.
        Specifically:

             − Complete reviews that address every President’s, Secretary’s, and
               OIG-identified initiative, priority, and/or challenge as identified
               in FY 2002 by 2005.

             − Conduct a review within 1 year of new initiatives and priorities
               that the Department has initiated.


                  Goal 2: Improve economy and efficiency and
                  reduce waste, fraud, and abuse within the
                  Department

      2. Objective: Concentrate OIG efforts on issues that have the greatest
         impact and usefulness to the Department.



                                          21
Strategies:

− Ensure that every performance review includes an analysis of program
  accomplishments and the use of metrics to measure results.

− Ensure at least 50 percent of all performance audits include
  recommendations leading to demonstrable cost savings, program
  efficiencies and/or funds that can be put to better use.

− Complete five follow-up reviews annually from FYs 2003 to 2007 to
  determine status and efficacy of corrective actions.

− Complete an annual risk-based programmatic assessment that considers
  OIG institutional knowledge, past program performance, funding levels,
  Presidential, Secretarial, and congressional concerns, as well as input
  from Department program managers.

− Ensure that each year 80 percent of all planned performance reviews
  address high-risk areas as identified in the OIG annual risk-based
  programmatic assessments.

− Strive for the Department to accept 75 percent of review
  recommendations.

3. Objective: Provide timely information to the Department so that
   prompt action can be taken to improve program performance.

Strategies:

− Issue 80 percent of audit reports no later than 60 days following receipt
  of management comments.

− Complete 75 percent of special inquiries within 60 days.

− Ensure that 90 percent of administrative reports to management are
  issued within 60 days of resolution of criminal and civil investigations.

− Complete follow-up inspections and special inquiries as identified in the
  OIG annual plans within 90 days of initiation.

− Complete the fieldwork for 80 percent of inspections within 90 days of
  initiation.




                                    22
4. Objective: Strengthen financial management and cyber security
   through completion of mandatory reviews in accordance with Office of
   Management and Budget and other applicable requirements.

Strategies:

− Complete annually the Department’s consolidated financial statement
  audits to determine whether the financial statements are free from
  material misstatement.

− Review the Department’s classified and unclassified information security
  system programs in conjunction with the financial statement audit.

− Complete at least 10 “Statement of Costs Incurred and Claimed” audits
  annually to assess internal controls over costs claimed by the
  Department’s major contractors.

5. Objective: Concentrate investigative efforts on allegations of criminal
   and civil violations of law that adversely impact major Department
   programs and operations, with emphasis on maximizing the recovery of
   public resources and deterring future wrongdoing.

Strategies:

− Achieve an annual acceptance rate of 70 percent for cases presented for
  prosecutorial consideration.

− Ensure that 75 percent of all cases opened focus on key areas of
  Department vulnerability, specifically procurement and grant fraud,
  environmental violations, qui tams, or computer crimes.

6. Objective: Coordinate with other law enforcement agencies to
   establish effective networks in order to identify areas that are most
   vulnerable to waste, fraud, and abuse.

Strategy:

− Ensure at least 25 percent of all open cases are joint agency/task force
  investigations with external law enforcement agencies, such as the
  Federal Bureau of Investigation and other OIGs.

7. Objective: Heighten awareness of potential fraud among internal and
   external customers.




                                   23
Strategy:

− Provide 20 fraud awareness briefings annually to Department and
  contractor employees and managers.


              Goal 3: Support the Taxpayer


8. Objective: Provide an effective and efficient mechanism for the
   Department and the public to report waste, fraud, and abuse.

Strategies:

− Operate the OIG Hotline in a manner that ensures at least 80 percent of
  Hotline complaints warranting further action begin processing within 7
  days of receipt.

− Forward 85 percent of the complaints identified for referral to the
  Department within 14 days of initiation of the case.

9. Objective: Report to the public.

Strategy:

− Ensure that all OIG public reports are accessible via the Internet within 4
  working days of submission to the Secretary.




                                   24
             FY 2003 Annual Performance
                     Plan


                OFFICE OF AUDIT SERVICES

The Office of Audit Services uses a risk-based process for identifying areas for
audit coverage. Specific areas with the greatest vulnerability and those with
significant dollar amounts are identified. This process leads to the office’s
conducting program performance reviews that focus on the most serious
management challenges facing the Department, the President’s Management
Agenda, and the Secretary’s priorities. A significant portion of the OIG’s
resources is directed toward meeting its statutory audit responsibilities. In the
past, these responsibilities were mostly financial in nature and crosscut all of
the challenge areas, the President’s five key management initiatives, and the
Secretary’s priorities. The OIG’s statutory audit responsibilities continue to
increase with the addition of information technology security responsibilities.

The Office of Audit Services has scheduled 81 performance audits to start in
FY 2003. Many non-discretionary taskings from external sources impact on the
office’s workload demands, and it is sometimes necessary to delay, postpone,
or cancel planned audits to accommodate these demands. Following is a
summary of audits scheduled to begin in FY 2003. The audits are grouped by
management challenge area as appropriate. The planned audit workload is
summarized later in this Plan.

National Security
Stockpile Stewardship. The Department is responsible for maintaining the
safety, reliability, and performance of the aging nuclear weapons in the
Nation’s stockpile. Since the moratorium on underground testing of nuclear
weapons, the Department accomplishes this responsibility through its Stockpile
Stewardship Program. The Department is required, based on activities
conducted under the Stockpile Stewardship Program, to annually certify to the
President that the nuclear weapons stockpile is, in fact, safe and reliable and
that underground nuclear testing does not need to be resumed. Ultimately,
the program’s success is dependent upon developing an unprecedented set of


                                       25
scientific tools to better understand nuclear weapons, enhancing stockpile
surveillance capabilities, and in the process, extending the life of the weapons
that comprise the stockpile.

Deficiencies have been identified in surveillance tests of stockpiled nuclear
weapons, a key component of the Stockpile Stewardship Program. Since 1996,
the Department has not met many of its milestones for surveillance testing,
which has resulted in a significant backlog. The backlog in surveillance testing
puts the Department at risk for not having critical information on the reliability
of these weapons. Deficiencies have also been identified in conducting
Significant Finding Investigations to determine the cause and impact of
problems identified by surveillance tests, and to recommend corrective
actions. The Department has not been meeting internally established
timeframes for initiating and conducting investigations of defects and
malfunctions in nuclear weapons. This resulted in test data and findings
related to weapon reliability not being readily available to the Departments of
Energy and Defense. Ensuring that the Department can guarantee the safety
and reliability of the nuclear stockpile is one of the Secretary’s priorities.

Audits in the Stockpile Stewardship area, scheduled to begin in FY 2003, will
determine whether:

     − The Department is meeting the goals of the Nuclear Survivability
       Campaign. (A03DC008)

     − The goals and objectives of the Enhanced Surveillance Program are
       being achieved. (A03DC009)

     − The Department is disposing of disassembled weapons parts that have
       no identified need. (A03DC011)

     − Los Alamos is meeting identified delivery schedules for containment
       vessels. (A03LA012)

     − Los Alamos is stabilizing fissionable and other radioactive materials.
       (A03LA013)

     − The required parts and materials necessary for a hydro test shot are
       available. (A03LA014)

     − NNSA’s Stockpile Life Extension Program is meeting scheduled
       milestones for refurbishment. (A03LL022)

     − Routine operations at the Nevada Test Site can be consolidated.
       (A03LV024)



                                       26
     − The Department has established requirement levels for tritium that are
       consistent with current weapons planning. (A03SR022)

     − Y-12 operations can ensure the reliability of its Enriched Uranium
       Operations. (A03YT027)

     − Funds received by the Office of Transportation Safeguards are used
       only in support of mission essential expenditures. (A03AL036)

     − The Foreign Research Reactor Spent Nuclear Fuel program is
       maximizing the recovery of domestic highly enriched uranium that is
       dispersed throughout the world. (A03SR031)

Security and Safety. The Department and its predecessor agencies have long
played a critical role in our Nation’s national security mission. The
Department’s complex is large and multi-faceted with a wide variety of
locations, facilities, sensitive materials, and activities that must be kept safe
and secure. In coordination with the Department of Defense and other
agencies, the Department helps to ensure that we live in a safe and secure
world. There have been profound changes in U.S. national security policies in
the post-Cold War era, but the commitment to a secure national defense
remains as strong as ever. However, recent terrorist activities have prompted
the Department to consider new security threats and to identify and implement
new security measures on an evolving basis. For example, the Department
established a direct-funded safeguards and security budget and obtained
supplemental security funding in response to the September 11, 2001, terrorist
attacks. However, the Department still needs to improve certain procedures
for cyber security, controls over classified and nuclear weapons-related
information, and security of its networking infrastructure necessary for critical
systems.

Ensuring the safety and health of its workforce and the public is one of the
Department’s most difficult, long-term challenges. The Department is tasked
with simultaneously addressing the consequences of past activities, managing
current operations, and preventing future human and environmental problems.
Safety and health issues encompass all activities relating to the identification,
testing, handling, labeling, cleanup, storage, and/or disposal of radioactive and
hazardous waste. Other activities relate to nuclear safety and occupational
and worker safety and health. The Department is implementing new safety
programs and conducting on-site evaluations to monitor conduct of operations
and compliance with environment, safety and health requirements.

Audits in the Security and Safety area, scheduled to begin in FY 2003, will
determine whether:




                                       27
     − Costs for Safeguards and Security activities are incurred for their
       stated purpose and indirect charges proportionately benefit safeguards
       and security programs. (A03NE009)

     − The Materials Protection, Control and Accounting Program is meeting
       its revised goal for completing physical protection upgrades of Russia’s
       weapons and weapons-usable material storage facilities. (A03AL001)

     − There are adequate safeguards in the Technology Transfer Program to
       prevent the proliferation of nuclear/sensitive technology. (A03AL003)

     − NNSA’s Chemical and Biological National Security Program is meeting
       its mission goals and objectives for Domestic Demonstration and
       Application activities. (A03DC005)

     − The Department has implemented corrective actions for safety
       deficiencies identified by internal Department and Defense Nuclear
       Facility Safety Board safety reviews. (A03DC010)

     − The Department is meeting its responsibilities for physical critical
       energy infrastructure and taking advantage of National Infrastructure
       Simulation and Analysis Center services. (A03TG023)

     − The Savannah River Site’s medical facilities are operated in a manner
       consistent with Department policies. (A03SR019)

Infrastructure and Asset Management. The Department’s physical
infrastructure includes more than 50 major facilities in 35 States.
Modernization of these aging facilities and restoration of sites to make them
safe and viable are two of the most important tasks facing the Department.
The aging and deterioration of the Department’s defense and research and
development facilities have resulted in facilities operating well beyond their
expected useful life. The Department is at risk for not being able to meet
existing mission objectives if the condition and functionality of its facilities are
not addressed. The Department has embarked on a long-range program to
consolidate and build a smaller, modern and more efficient weapons
production complex. This long-range program includes repairing and improving
existing facilities, upgrading roads and utilities, and improving or constructing
mission support structures. The Department has also developed a Strategic
Facilities Plan for each multi-program laboratory that identifies expected
general-purpose infrastructure modernization needs. In addition, the
Department has developed Infrastructure Restoration Plans for its three long-
term multi-program environmental sites. The plans are tied to current and
planned cleanup and other Department missions, recognizing current
capabilities and conditions and the extent of deferred maintenance.



                                         28
The Department also has extensive inventories of nuclear and non-nuclear
materials that may no longer be necessary due to mission changes. However,
the Department continues to spend funds to store, secure, and handle these
materials that could be put to better use. In addition, the potential exists for
safety and health concerns. While the Department has taken steps to improve
its management of infrastructure and asset inventories, such as seeking
additional funding for infrastructure purposes, drafting management policy for
real property, and demonstrating new technologies to identify and track the
locations of assets, more needs to be done. The deterioration of infrastructure
in the Department is at a critical stage.

In FY 2003, audits in the Infrastructure area will determine whether:

     − There is a programmatic requirement for NNSA’s current and planned
       line-item projects. (A03AL004)

     − The appropriate infrastructure is in place to ensure the successful
       resolution of an emergency event. (A03DC006)

     − Livermore is maximizing the use of its available facilities and
       infrastructure to meet its mission at the least cost to the Department.
       (A03LL020)

     − NNSA can consolidate the hydrodynamic test infrastructure and support
       throughout the weapons complex. (A03LL021)

     − The Kansas City Plant’s restructuring initiative will achieve its intended
       results. (A03YT026)

     − The Y-12 Highly Enriched Uranium Materials Facility will be completed
       on time and within budget. (A03YT028)

     − The Department’s Isotope Production Program has consolidated
       facilities and refocused production. (A03NE008)

     − The Power Marketing Administrations have systems in place to ensure
       protection of critical assets. (A03DN004)

Environmental Management

Environmental Stewardship. The Department faces significant environmental
challenges at its facilities due to past operations that left a legacy of
unacceptable risk to the environment. It is charged with the daunting task of
protecting human health and the environment by cleaning up large volumes of
hazardous and radioactive wastes and contaminated facilities that supported


                                       29
nuclear weapons production activities. The Department must also address the
need to permanently dispose of defense-related high-level radioactive wastes
as well as spent nuclear fuel from civilian nuclear power plants. All of these
activities must be carried out consistent with established Federal, State, and
local requirements and standards. The Secretary has two main priorities in the
Environmental Program: completing a “top-to-bottom” review of the entire
Environmental Management Program (completed in February 2002); and
producing a plan to accelerate the cleanup and closure of all sites where there
is no longer a national security mission.

In FY 2003, audits in the Environmental Stewardship area will determine
whether:

    − The Department is adequately preparing for its post-closure
      responsibilities at Rocky Flats. (A03DN005)

    − Actions have been taken to improve the efficiency and effectiveness of
      groundwater monitoring activities. (A03FF005)

    − Surplus highly enriched uranium usable for nuclear weapons is being
      eliminated. (A03AL002)

    − The Department is on schedule to meet Government-Furnished Services
      and Items requirements at its environmental cleanup and closure sites.
      (A03DN001)

    − The Comprehensive Environmental Response, Compensation, and
      Liability Act (CERCLA) Pit Project is the most cost-effective alternative
      for the disposal of CERCLA waste at the Idaho National Engineering and
      Environmental Laboratory (INEEL). (A03IF007)

    − The revised Pit 9 demonstration project will meet Environmental
      Management’s environmental risk reduction objectives. (A03IF009)

    − The Department effectively managed the cleanup of the waste silos
      and pits at the Fernald Environmental Management Project.
      (A03OR013)

    − The Department has identified the safest and most cost-effective
      method for processing and disposing of plutonium at the Hanford Site.
      (A03RL015)

    − The Department is fully utilizing the Waste Receiving and Processing
      Facility at the Hanford Site. (A03RL017)




                                      30
    − The Office of River Protection has used the most cost-effective
      strategy in planning for the Waste Treatment Plant. (A03RL018)

    − Transportation routes within the State of Nevada will be available to
      transport waste to Yucca Mountain by 2010. (A03LV025)

    − Environmental Management (EM) is funding research and development
      activities at the INEEL that do not contribute to EM’s mission of
      reducing risk and accelerating cleanup. (A031D030)

Energy and Science
Research and Development Investment. Science and technology are critically
important to keeping the Nation’s economy competitive and for addressing
challenges we face in health care, defense, energy production and use, anti-
terrorism, and the environment. One of the President’s Management Agenda
reform initiatives is Better Research and Development Investment Criteria. As
such, every Federal research and development dollar must be invested as
effectively as possible. During FY 2001, the Department spent about $7.7
million on a broad range of research activities, representing more than 40
percent of its budget. However, the OMB has been critical of some of the
Department’s research and development efforts. Given the magnitude of the
Department’s research and development activities and the great benefit that
can flow from these activities, significant care needs to be taken in the
prioritization and management of these activities. Directing the Department’s
research and development budgets towards innovations and ideas that are
relatively immature in their development and ensuring greater applications of
mature technologies is one of the Secretary’s priorities.

In FY 2003, audits in the Research and Development Investment area will
determine whether:

    − Three separate nanoscale science research centers are necessary to
      satisfy the Department’s research goals. (A03SC019)

    − Livermore is efficiently disseminating nonproliferation technologies to
      monitoring agencies for implementation and use. (A03LL017)

    − The activities funded by the Department’s Transportation Program:
      (1) are in accordance with the President’s National Energy Plan; and
      (2) do not duplicate activities funded by the Department or by private
      industry. (A03CH003)

    − New technologies are being developed to meet identified military
      needs. (A03LA015)



                                     31
Energy Supply. The Department leads the Nation in the effort to develop
affordable advanced clean energy for the 21st Century and to accelerate its
acceptance and use, both nationally and internationally, by providing cutting-
edge research in a broad range of energy sources. As energy demand outpaces
supply, the Nation will need to expand its sources of domestic energy
production. Volatility in U.S. energy markets over the last few years has
demonstrated the need to strengthen the stability of the Nation’s energy
production and delivery systems as well as ensure the country’s energy
security. In FY 2001, the President presented a comprehensive National Energy
Policy to meet our energy challenges. This policy established five key national
goals: modernize our conservation efforts; modernize our energy
infrastructure; increase energy supplies; accelerate the protection and
improvement of the environment; and increase our Nation’s energy security.
One of the Secretary’s priorities is for the Department to take a leadership role
in exploring ways to identify and use potentially abundant new sources of
energy with dramatic environmental benefits.

Audits in the Energy Supply area, scheduled to begin in FY 2003, will determine
whether:

     − The Path 15 Expansion Project is on schedule to be operational by Fall
       2004. (A03DN003)

     − The Power Marketing Administrations’ Investment Activities are
       consistent with mission needs and conform to applicable laws and
       regulations. (A03FF004)

     − The Federal Energy Regulatory Commission has developed and is
       monitoring the rules and policies for the establishment of Regional
       Transmission Organizations. (A03NE007)

     − The Distributed Energy Resources Program has established long-term
       goals, has implemented a spending strategy to meet its goals, and is
       subsidizing commercial ventures. (A03PR013)




                                       32
Corporate Management
Information Technology Management. The President has encouraged the use
of electronic commerce in several pronouncements and has pledged the
Federal Government will increase its use of electronic commerce. The
President calls for the Administration to advance E-Government strategy by
supporting projects that offer performance gains across agency boundaries,
such as E-procurements and projects that can deliver significant productivity
and performance gains across the Government. Information technology
systems are an essential component of the Department’s day-to-day operations
and are vital to its programmatic and administrative functions.

With an estimated $1.4 billion annual expenditure for Information Technology
(IT), it is essential that the Department develop and implement an effective IT
management, investment and control process. To enhance the management
control and security of IT, Congress passed the Clinger-Cohen Act of 1996 and
the Government Information Security Reform Act of 2001. The Clinger-Cohen
Act required Federal agencies to appoint a Chief Information Officer to manage
IT investments and to adopt a performance- and results-based management
approach to acquiring, using, and disposing of IT. Although the Department
continues to increase integrating IT into all aspects of its management and
administration of various missions, it has experienced problems in fully
implementing the requirements of the Clinger-Cohen Act.

In FY 2002, the Secretary called for the full implementation of electronic
commerce Departmentwide. In FY 2002, the Department’s E-Government
initiative, the Innovative Department of Energy E-Government Applications
(IDEA), was announced. The immediate goal of IDEA is to complete and
approve the electronic Government program’s action plan and road map.

In FY 2003, audits in the Information Technology Management area will
determine whether the:

    − Department’s Electronic Commerce strategy is producing increased
      competition and cost savings to the Department and improved
      customer service. (A03TG020)

    − The Department has an integrated cost-effective information systems
      framework for controlling physical access and tracking security
      clearance information. (A03TG035)

    − The Department’s cyber security incident reporting methods provide
      for adequate protection of Department systems. (A03TG036)




                                      33
     − The Department has fully developed and implemented a process for
       managing sensitive equipment throughout its lifecycle. (A03TG037)

Contract Administration. A significant portion of the Department’s mission is
accomplished through contracts, with industrial, academic, and nonprofit
institutions operating the Government-owned plants and laboratories under a
management and operating relationship. These contracts represent the largest
share of the Department’s annual budget. Contractors operate and manage a
broad range of scientific and production activities and facilities. For example,
contractors operate 11 multi-program National Laboratories located throughout
the United States. The programs carried out in these laboratories range from
fundamental research in the physical and life sciences to advanced and goal-
oriented development of nuclear and alternative energy. Contract
administration, which includes project management, has been a longstanding
challenge. Although the Department has drastically changed its contract
management practices and policies with respect to its major facility contracts,
as well as the overall management of its procurement system, the Department
continues to be criticized for its contract management practices. For example,
there is criticism about the lack of contractual features to ensure contractor
performance accountability and the general indemnification of contractors for
the cost of all performance failures and liabilities under a contract. In
addition, the Department continues to experience difficulties in managing
some of its major projects.

In FY 2003, audits in the Contract Administration area will determine whether:

     − The Stanford Positron-Electron Asymmetric Ring 3 Upgrade Project is
       on schedule and within budget. (A03LL019)

     − The Total System Life Cycle Cost for the permanent repository is
       supported by approved change orders. (A03LV023)

     − Controls are in place to ensure that non-facilities acquisitions are
       adequately competed, comply with Federal and Department directives,
       and contain appropriate performance measurement attributes.
       (A03CH001)

     − Small Business Innovative Research grantees are receiving funding from
       multiple Federal sources for the same research and development work.
       (A03CH002)

     − NNSA’s Elimination of Weapons Grade Plutonium Production Program is
       effectively meeting its program goals. (A03LL018)




                                      34
     − Oak Ridge has implemented a cold standby program at Portsmouth that
       ensures the plant’s capability to resume production within 24 months
       of the restart decision. (A03OR010)

     − Non-Federal work at the Office of Science laboratories is directly
       related to the Department’s mission, does not compete with the
       private sector, and is not subsidized by Department funds. (A03PR010)

     − The Department is ensuring that contractors are taking full advantage
       of and expanding consortium-buying opportunities. (A03PR011)

     − Project costs are being accurately charged and reported and whether
       non-project funds are being used to subsidize projects. (A03PR012)

     − The Department is applying sound project management practices to
       projects that receive directed funding. (A03SC016)

     − The Department has adequate internal controls to monitor grantee
       performance for construction or major project-related awards made by
       the Office of Science. (A03SC018)

     − The Department is on track to meet the Administration’s competitive
       outsourcing goals. (A03DN002)

     − The Department is paying its fair share of remediation costs at Kerr-
       McGee’s West Chicago Thorium Processing Facility. (A03OR011)

     − The Pit Disassembly and Conversion Facility is on schedule to meet the
       Department’s weapons-grade plutonium conversion goals at the
       Savannah River Site. (A03SR021)

Human Capital. Strategic Management of Human Capital is one of the
President’s Management reform initiatives and also one of the most serious
challenges facing the Department. The Department’s staff has been criticized
for its lack of project and contract management skills required to oversee large
projects, such as the cleanup of radioactive and hazardous waste sites. The
Department is highly dependent on its Federal workforce for its mission
accomplishment. Since 1995, the Department has experienced a 27 percent
reduction in the workforce. In addition, other factors such as a moratorium on
hiring, the relative age of the workforce, reductions in force, and buyouts,
have contributed to the decline in staff that has left the Department with a
significant management challenge. Currently, only nine percent of the
workforce is under the age of 35 and the situation is even more severe for the
technical workforce, which has only six percent of its population under 35.
This high average age combined with a very low number of younger employees



                                      35
leads to concerns about succession planning and the infusion of new ideas and
sustaining technical capabilities.

In addition, some of the Department’s major contractors have experienced
similar losses. Many of those retiring or resigning take with them technical and
scientific knowledge that is not easily replaced. The experienced designers
and engineers who built the weapons in the stockpile and understand how they
work are reaching or past retirement age. The Department is also faced with
shortages of technicians skilled in techniques associated with weapons
production, such as the plutonium pit manufacturing process. The Department
needs to address the challenge of recruiting and training the next generation of
technical and managerial staff before it reaches crisis proportions by the end of
this decade.

Audits in the Human Capital area will determine whether:

     − Los Alamos National Laboratory’s recruitment and retention program is
       meeting program goals. (A03LA016)

     − The Department is able to recruit and retain sufficient numbers of
       administrative personnel. (A03PT015)

     − Bechtel is effectively managing human resources at the INEEL.
       (A03IF008)

     − The current retention allowances paid by the Rocky Flats Field Office
       are justified. (A03DN032)

Performance Management. The President’s Management Agenda identified
Budget and Performance Integration as a Governmentwide initiative and
outlined a plan to provide a results-oriented management process for the
Federal Government. A primary focus of the President’s Plan is that funding
allocations are based on the achievement of goals. Under-performing programs
would have to demonstrate evidence of attaining meaningful goals or face
reduced funding or elimination. In the past, the Department has been
criticized for deficiencies that include: (1) performance measures that are not
quantifiable; (2) performance measures that do not support key goals; and (3)
underlying processes that are not results oriented. In response to this
criticism, the Department created the Office of Program Analysis and
Evaluation and is moving toward a 5-year planning, programming budget and
evaluation system, which is intended to better integrate improved performance
measures with the budget. The Department needs to ensure that it has metrics
in place and uses them to manage its programs and activities effectively.

Audits in the Performance Management area, scheduled to begin in FY 2003,
will determine whether:


                                       36
     − The Office of Science performance measures reflect overall program
       performance. (A03SC017)

     − The Department has established research plans and budgets to
       evaluate the technological readiness of the Carbon Sequestration
       Process. (A03PT014)

     − The Department is meeting the goals for the Recovery and Recycling
       Program for plutonium, enriched uranium and tritium. (A03DC007)

     − The Idaho Operations Office will meet performance expectations for
       the Advanced Mixed Waste Treatment Project. (A03IF006)

     − The Department’s Cleanup Reform projects are meeting their
       performance targets and reducing risk to the public, employees, and
       environment. (A03OR012)

     − The Department is achieving its goals for the Waste Management
       Program at the Oak Ridge Reservation. (A03OR014)

     − The Groundwater/Vadose Zone Integration Project has met the
       Department’s goals and provided a sound technical basis for making
       cleanup decisions at the Hanford Site. (A03RL016)

     − Performance-based incentive fees paid to Westinghouse were
       consistent with performance objectives established at the start of the
       performance period. (A03SR020)



                OFFICE OF INVESTIGATIONS

The Office of Investigations conducts investigations into alleged violations of
law that impact Department programs, operations, facilities, and personnel.
Priority is given to investigations of suspected violations of criminal and civil
statutes, as well as serious administrative misconduct. Particular focus is
placed on the prevention and detection of contract and grant fraud;
environment, safety and health violations; computer crimes; and issues that
reflect on the integrity and credibility of Department officials. This generally
involves the investigation of Department personnel, contractors, and others
receiving Department funds. As the law enforcement arm of the OIG, Special
Agents work closely with prosecutors and are afforded a full range of law
enforcement authorities—carry firearms, apply for and execute search
warrants, and make arrests.



                                        37
Significant accomplishments over the past 5 years illustrate the positive impact
that the office has in deterring and preventing wrongdoing and improving
programs and operations within the Department. Since 1997, the Office of
Investigations has referred 152 cases for prosecution, with 116 accepted, for an
average acceptance rate of 76 percent. Investigative work has resulted in 57
indictments, 67 convictions, 13 pretrial diversions, and 24 civil actions. The
Office of Investigations has issued 99 investigative reports to Department
management, with 267 recommendations for positive change. Results included
50 debarments and 57 suspensions of individuals and companies, and 80
disciplinary actions against Federal and contractor employees. Other notable
outcomes include over $88 million in recoveries and fines resulting from
investigations. This office has averaged $17.6 million per year in recoveries
and fines.

As we enter FY 2003, the Office of Investigations plans to build on its existing
efforts in combating fraud, waste, and abuse within the Department. The
office is committed to preserving the integrity of investigative work by
continuing to adhere to the Quality Standards for Investigations issued by the
President’s Council on Integrity and Efficiency.

National Program Area Initiative
The Office of Investigations is unique when compared to the other functional
offices. The work performed by the Office of Investigations has been
historically reactive in nature—responding to allegations of wrongdoing. The
office, however, has begun to proactively identify areas in the Department that
seem to be most vulnerable to waste, fraud, and abuse, better known as the
National Program Area Initiative. The program focuses on four primary areas:
(1) contract and grant fraud; (2) Environment, Safety, and Health (ES&H)
violations; (3) qui tam matters; and (4) technology crimes. Beginning in FY
2003, the office’s goal is to have 75 percent of open investigations address at
least one of the four program areas.

Contract and Grant Fraud. A majority of the Department’s budget is
expended on contracts and grants. One major investigative success in this area
involved a subcontractor paying the Government a total of $2.2 million to
resolve allegations that employees submitted false per diem claims for long-
term temporary assignment to a Department facility. Given the continuing
potential for significant fraud, in FY 2003, the Office of Investigations will
continue to: (1) identify and pursue contract and grant fraud investigations
proactively; (2) prioritize contract and grant fraud investigations, placing
emphasis on cases with a potential high dollar recovery to the Department; (3)
provide fraud awareness briefings throughout the Department, including NNSA;
(4) work with established contract and grant task forces, and identify
opportunities to establish new task forces; (5) attend appropriate contract and
grant fraud training; (6) work with the Department of Justice in delivering anti-


                                        38
trust briefings to the Department and its contractors; and (7) coordinate and
pursue leads referred by the OIG Offices of Audit Services and Inspections.

Environment, Safety and Health Violations. The Department funds one of the
largest environmental cleanup projects in history. In FY 2002, one major ES&H
investigation determined that a contractor improperly stored contaminated
waste in violation of the Resource Conservation and Recovery Act. During the
course of the investigation the contractor’s parent company paid $14.5 million
in remediation and disposal cost to clean up waste stored improperly.
Additionally, the Office of Investigations continued its participation in
environmental task forces located in multiple States, including New Mexico,
Nevada, Colorado, and Tennessee. The office also maintained its role in the
“Environmental Consortium,” a multi-agency effort which serves to: (1)
conduct a proactive review of the potential “overlapping” environmental
projects between agencies; (2) seek opportunities for information sharing and
liaison; and (3) identify joint cooperative initiatives.

In FY 2003, the Office of Investigations will continue to: (1) work with
established ES&H task forces, and identify opportunities to establish new task
forces; (2) develop and maintain ES&H contacts in the Department, NNSA and
other Government agencies; and (3) identify proactive investigative activity
with the assistance of environmental task force members’ proactive
investigative activity.

Qui Tams. The Office of Investigations continues to actively pursue qui tam
matters and, in the process, work closely with the Department of Justice, Civil
Division, Commercial Litigation Branch. Through the qui tam process, private
citizens may file a civil suit under the False Claims Act on behalf of the
Government. These investigations have a major impact on the Department,
and generally involve significant allegations of fraud involving millions of
dollars and multiple Federal agencies. Settlement amounts are divided among
the Department of Justice, the U.S. Treasury, affected agencies, and the
complainants. The office is currently working with the Department of Justice
on 27 qui tam lawsuits involving alleged fraud against the Government in the
amount of approximately $186 million.

In FY 2003, the Office of Investigations will continue to: (1) provide assistance
to the Department of Justice in investigating and providing analysis of the qui
tam cases; (2) adjust resources appropriately to ensure priority qui tam cases
are being resolved in a timely manner; and (3) identify specific qui tam training
for Office of Investigations personnel.

Technology Crimes. A Technology Crimes Section within the Office of
Investigations is staffed by investigators with the specialized skills necessary to
proactively and reactively respond to complex computer crimes committed
against the Department and to provide computer forensic support during


                                        39
general fraud investigations. This is essential because risks and vulnerabilities
(i.e., fraud, employee misuse, virus attacks, security breaches, and computer
systems intrusions) are on the increase, and historic methodologies for
committing crime, especially white-collar crime, have been successfully
adapted to modern technology. The Technology Crimes Section worked
aggressively in FY 2002, and obtained several criminal convictions against
individuals who hacked into Department computer networks, as well as others
who used Government equipment to download and view child pornography.

During FY 2003, the Technology Crimes Section will continue to:
(1) proactively contribute to and support criminal investigations through
consultations and forensic media analysis; (2) investigate incidents of
technology crimes and noncompliance with applicable regulations involving
protection of the information infrastructure throughout the Department’s
complexes; (3) clarify and extend the office’s role in technology incident
response and investigations in the Department; (4) refine and provide
technology crimes awareness briefings throughout the Department complex;
and (5) provide basic technology crimes training to Criminal Investigators.

Other Initiatives
In addition to its work within the four program areas in FY 2003, the Office of
Investigations will, as resources allow, address other initiatives aimed at
improving operational effectiveness and efficiency.

Proactive Work
During FY 2002, the Office of Investigations dedicated an increasing amount of
attention and resources to proactive investigations rather than merely reacting
to incoming allegations—thus, enhancing the office’s ability to target
vulnerable areas. In FY 2003, the office will streamline and formalize its
proactive case development process. In prior years, the process had been
effective, but ad hoc. A more targeted approach will ensure an efficient and
effective use of resources. Additionally, partnerships with other law
enforcement agencies and Department managers and employees will be
expanded, and productive sources of information will be further cultivated.
One area that will continue to receive proactive attention is Government
purchase cards that provide the Government with a means to simplify its small
purchase procedures and improve its cash management. The Office of
Investigations obtained notable criminal convictions involving significant misuse
and abuse of such cards. The office expects to continue to obtain such notable
criminal convictions as reflected in the FY 2002 performance results.




                                        40
Quality Assurance Reviews
During FY 2002, the Internal Review Process was redesigned and renamed the
Quality Assurance Review (QAR) program. The program is designed to evaluate
whether: (1) investigative offices are operating in compliance with the PCIE
Quality Standards for Investigations, relevant Federal laws and regulations,
Department and OIG directives and orders, and internal Office of Investigations
policies, objectives and priorities; and (2) field managers are administering
personnel, fiscal, and other resources in an efficient and effective manner.

During FY 2003, the initial round of quality assurance reviews will be
completed. In addition to providing assessments of organizational
performance, the process will also be used to identify opportunities to
improve, streamline, and reduce redundancies in office policies and programs.

Case Opening Thresholds
In FY 2003, the Office of Investigations will continue to conduct reviews of its
minimum case opening thresholds. Such reviews are an essential component of
the office’s effort to focus on the Department’s programs and operations most
vulnerable to fraud, waste, and abuse. In 1996, the Office of Investigations
established policy whereby dollar loss to the Government became one of the
primary criteria for committing resources to investigations. As in other years,
the Office of Investigations will reevaluate the dollar threshold and determine
if investigative resources dictate the need to increase the minimum case
opening dollar amount.



                   OFFICE OF INSPECTIONS

The Office of Inspections employs a wide range of analytical techniques and
methodologies to perform multiple missions. The office conducts performance-
and allegation-based inspections and manages the OIG Hotline and Management
Referral Systems. Additionally, the office conducts special inquiries in
response to concerns raised by Congress and senior levels of the Department
involving Department programs and operations. The office serves as a key
player in facilitating management reform in the Department by evaluating and
providing recommendations to improve program performance. Although the
office plans a portion of its annual inspection work, it exercises a degree of
flexibility to promptly address non-criminal complaints and allegations received
during the course of the year. The office initiated an annual average of 14
allegation-based inspections over the last 3 years.




                                       41
When planning its performance inspection work, the office identifies and
prioritizes topics responsive to the President’s Management Agenda, the
Secretary’s Priorities, and the Department’s Management Challenges as
identified by the OIG. Inspections are initiated with consideration given to
their significance and potential impact on Department programs and
operations. In light of current heightened concerns over homeland security,
the office is focusing its resources to address critical safety and security issues
affecting programs and operations throughout the Department complex. The
following represents open inspections that the office will carry into FY 2003
and performance inspections that it plans to initiate.

National Security
Eighteen inspections will be carried into FY 2003 and 16 are planned that focus
on National Security. These include inspections of:

Carry-In

     − Aircraft requirements for the Department’s Joint Technical Operations
       Team mission. (S02IS040)

     − Internal control of firearms at selected Department sites. (S02IS039)

     − Internal controls over the use and inventory of laptop computers at
       selected Department sites. (S02IS038)

     − Security policies and procedures for the Department’s aircraft.
       (S02IS036)

     − Security and inventory controls for hazardous/toxic chemicals at
       selected Department sites. (S02IS035)

     − Department participation in the international cooperative effort to
       study sabotage involving civil nuclear/radioactive material in storage
       and transit. (S02IS034)

     − Concern regarding a hazardous waste shipment. (S02IS031)

     − Use of memorandums of agreement for security and safety support at a
       selected Department site. (S02IS030)

     − Department policies and procedures for control and accountability of
       special nuclear material from foreign countries. (S02IS028)

     − Safety of explosives at selected Department sites. (S02IS001)


                                        42
    − Security policies and procedures to protect spent nuclear fuel
      shipments during transport. (S02IS027)

    − Status of action to correct deficiencies identified during force-on-force
      exercises. (S02IS021)

    − Nuclear waste security at a selected Department site. (S02IS017)

    − Followup on safeguards and security survey activity at a Department
      site. (S02IS013)

    − Security of explosives while in storage or in transit. (S02IS012)

    − Security of key assets while in transport. (S02IS005)

    − Management of the Department-sponsored visa program. (S02IS037)

    − Intelligence oversight (fourth quarter) as required by Executive Order
      12863, “President’s Foreign Intelligence Advisory Board,” with a report
      to the President’s Intelligence Oversight Board. (S02IS041)

Planned

    − The Department’s role in analyzing the cumulative effect of the export
      of dual-use and munitions commodities.

    − Physical security of bioagents at Department facilities.

    − Aviation support to Department programs and operations.

    − Sensitive information on Department websites.

    − Status of recommendations made in prior export control-related
      reports.

    − Personnel reliability program at selected Department sites.

    − Role of the Office of Counterintelligence in the Department’s counter-
      terrorism efforts.

    − Compliance with intelligence requirements at a selected field site.

    − Demilitarization of excess military equipment.

    − Oversight of shock sensitive chemicals at a selected Department site.


                                      43
     − Handling of export controlled information associated with grants to
       academic institutions and work-for-others contracts with non-
       Government entities at a selected Department site.

     − Use of emergency medical coordination memorandums of agreement at
       a selected Department facility.

     − Intelligence activities, as required by Executive Order 12333, “United
       States Intelligence Activities,” and Executive Order 12863, “President’s
       Foreign Intelligence Advisory Board” (quarterly reviews, with reports
       to the President’s Intelligence Oversight Board).

Environmental Quality
The following two inspections focusing on Environmental Quality will be carried
into FY 2003:

Carry-In

     − Reportable incident reports at a Department laboratory. (S01IS022)

     − Applicability and implementation of Price Anderson Act and
       Department nuclear safety rules at a Department site. (S01IS030)

Energy and Science
The following inspection focusing on Energy and Science will be carried into
FY 2003:

Carry-In

     − The Department’s efforts to reduce energy consumption to meet
       prescribed energy levels. (S01IS016)




                                      44
Corporate Management
Six inspections will be carried into FY 2003 that focus on Corporate
Management, and two inspections are planned in this area. These include
inspections of:

Carry-In

    − Grants awarded to the States of South Carolina and Georgia for
      emergency response and law enforcement related activities.
      (S02IS026)

    − Possible unauthorized use of discretionary funds and over-payment of
      funds to a contractor for leased space. (S02IS015)

    − Alleged procurement irregularities involving a Department office.
      (S02IS003)

    − Procurement concerns in connection with a Department solicitation.
      (S01IS034)

    − Concerns involving assignment of tasks for site upgrade at a
      Department National Laboratory. (S01IS032)

    − Remarketing concerns. (S02IS029)

Planned

    − Objective merit review and evaluation of grants and cooperative
      agreements at a selected Department site.

    − Disposition of property, equipment, and chemicals at a selected
      Department site.



                 OFFICE OF PROGRAM
                 REVIEW AND SPECIAL
                      INQUIRIES

In May 2002, the Inspector General established the Office of Program Review
and Special Inquiries to perform special, expedited reviews or inquiries
concerning high profile or particularly sensitive matters. The newly formed



                                     45
office employs an inter-disciplinary staff whose major initiatives include
performing such expedited fact-finding inquiries, including particularly
sensitive NNSA matters, as well as proactive reviews of major program areas.
The office’s efforts are initiated based on requests from Congress, the
Secretary or other senior Department officials, the Inspector General or the
Principal Deputy Inspector General.

Early in FY 2003, the Office of Program Review and Special Inquiries initiated a
major fact-finding inquiry, requested by the Acting NNSA Administrator, into
allegations of integrity concerns involving the management of the Los Alamos
National Laboratory and its handling of instances of waste, fraud, or abuse.
This effort is expected to consume a substantial portion of resources. During
FY 2003, the Office of Program Review and Special Inquiries also intends to
continue developing proactive initiatives in the areas of purchase cards and
grants, and to continue to be responsive to congressional, Secretarial, as well
as other special expedited reviews and inquiries.




                                       46
           FY 2003 Performance Plan
                 Schedule
Office of Audit Services
AUDIT
NUMBER     TITLE

           Fiscal Year 2003 Performance Carry-in Audits

A02AL035   PLANNING AND BUDGETING FOR NNSA’S INFRASTRUCTURE
A02AL036   REPAIRS IDENTIFIED BY STOCKPILE SURVEILLANCE PROGRAM
A02AL048   NNSA’S PLANNING, PROGRAMMING AND BUDGETING SYSTEM PROCESS
A02AT012   WIRELESS COMMUNICATIONS
A02AT015   FOLLOWUP AUDIT OF INTERNET PRIVACY
A02CF008   DOE’S SAFETY ANALYSIS REQUIREMENTS
A02CF038   NUCLEAR FACILITIES
A02CG004   SCIENCE INFRASTRUCTURE
A02CG022   CLEARANCES AND BADGE ACCESS CONTROLS AT SELECTED FIELD LOCATIONS
A02CG029   FOLLOWUP AUDIT OF DOE’S MANAGEMENT OF FIELD CONTRACTOR EMPLOYEES
           ASSIGNED TO HEADQUARTERS AND OTHER FEDERAL AGENCIES
A02CG030   DOE’S CONTROLS OVER FOREIGN VISITORS
A02CG032   PROJECT MANAGEMENT PRACTICES IN THE OFFICE OF SCIENCE
A02CH001   REMOTE TREATMENT FACILITY AT ARGONNE-WEST
A02CH002   INITIATIVES FOR NUCLEAR NONPROLIFERATION
A02DN028   PROCUREMENT AT ROCKY FLATS
A02EM039   BERYLLIUM METAL INVENTORIES
A02EM041   CALUTRON ISOTOPE PRODUCTION
A02EM044   BERYLLIUM OPERATIONS AT Y-12
A02IF010   DISPOSAL OF REMOTE HANDLED TRANSURANIC WASTE
A02IF011   DOE’S SPENT NUCLEAR FUEL LEAD LABORATORY
A02IF013   IDAHO SETTLEMENT AGREEMENT MILESTONES AT INEEL
A02IF032   PERFORMANCE EVALUATION MANAGEMENT PLAN AT INEEL
A02LA021   DUAL AXIS RADIOGRAPHIC HYDRODYNAMIC FACILITY
A02LL018   NATIONAL IGNITION FACILITY PROJECT



                                     47
A02LL019   LIVERMORE’S RECRUITMENT AND RETENTION PROGRAM
A02LL037   W80 REFURBISHMENT
A02LV043   DISPOSAL OF SURPLUS/EXCESS PERSONAL PROPERTY AT THE NEVADA TEST SITE
A02LV047   LOCAL GOVERNMENT USE OF NUCLEAR FUNDS
A02OR007   DOMESTIC PLUTONIUM-238 PRODUCTION
A02OR029   REINDUSTRIALIZATION AT THE EAST TENNESSEE TECHNOLOGY PARK (ETTP)
A02OR030   TREATMENT OF MIXED INCINERABLE WASTE
A02OR033   DOE’S AGREEMENT FOR UTILITY SERVICES AT THE ETTP
A02PR010   WEATHERIZATION ASSISTANCE PROGRAM
A02PT027   SECURITY FORCE ADMINISTRATION
A02PT033   ADMINISTRATION OF FINANCIAL INSTRUMENTS AT NATIONAL LABORATORIES
A02PT034   RESEARCH AND DEVELOPMENT INVESTMENT CRITERIA FOR FOSSIL ENERGY
           PROGRAM
A02RL022   PLANNED WASTE CHARACTERIZATION
A02RL024   FACILITY MAINTENANCE ACTIVITIES
A02SR013   SUBCONTRACTING PRACTICES AT SAVANNAH RIVER
A02SR031   WASTE PROCESSING FACILITY AT SAVANNAH RIVER


           GMRA Fiscal Year 2003-Carry-in Audits

A01DN040   WESTERN AREA POWER ADMINISTRATION – FY 2001
A02FN001   DOE – FY 2002
A02FN002   ISOTOPE PRODUCTION DISTRIBUTION – FY 2002
A02FN003   DECOMMISSIONING AND DECONTAMINATION – FY 2002
A02FN004   FEDERAL ENERGY REGULATORY COMMISSION – FY 2002
A02FN008   WESTERN AREA POWER ADMINISTRATION - FY 2002


           Other Fiscal Year 2003 Financial Carry-in Audits

A02CH015   ARGONNE NATIONAL LABORATORY FY 2001 FINANCIAL CERTIFICATION
A02DN027   NREL FY 1999-2001 FINANCIAL CERTIFICATION
A02LA045   COMMISSIONING LOS ALAMOS LABORATORY'S DUAL AXIS RADIOGPAPHIC
           HYDROTEST FACILITY
A02LV029   BECHTEL NEVADA FY 2001 FINANCIAL CERTIFICATION
A02PRO24   NASA CONTRACT WITH PRINCETON
A02RL032   BATELLE MEMORIAL FY 2001 FINANCIAL CERTIFICATION
A02SR020   WESTINGHOUSE SAVANNAH RIVER SITE FY 2001 FINANCIAL CERTIFICATION




                                      48
           Planned Fiscal Year 2003 Performance Audits


A03AL001   INTERNATIONAL MATERIALS PROTECTION, CONTROL & ACCOUNTING PROGRAM
A03AL002   DISPOSITION OF SURPLUS HIGHLY ENRICHED URANIUM
A03AL003   SAFEGUARDS OF NUCLEAR/SENSITIVE TECHNOLOGIES IN THE TECHNOLOGY
           TRANSFER PROGRAM
A03AL004   NNSA’S CURRENT AND PLANNED LINE ITEM PROJECTS
A03AL036   CONTROLS OVER EXPENDITURES WITHIN THE OFFICE OF TRANSPORTATION
           SAFEGUARDS
A03CH001   CONTROLS OVER RECURRING ACQUISITIONS
A03CH002   DUPLICATE FUNDING OF SMALL BUSINESS INNOVATIVE RESEARCH PROJECTS
A03CH003   THE DEPARTMENT’S TRANSPORTATION PROGRAM
A03DC005   CHEMICAL AND BIOLOGICAL NATIONAL SECURITY DOMESTIC DEMONSTRATION
           AND APPLICATIONS PROGRAMS
A03DC006   NUCLEAR WEAPONS INCIDENT RESPONSE PROGRAM
A03DC007   MATERIAL RECYCLE AND RECOVERY PROGRAM
A03DC008   NUCLEAR SURVIVABILITY OF THE ENDURING STOCKPILE
A03DC009   ENHANCED SURVEILLANCE PROGRAM
A03DC010   TIMELY RESOLUTION OF SAFETY DEFICIENCIES
A03DC011   DISPOSAL OF UNNEEDED WEAPONS PARTS
A03DN001   DELIVERY OF GOVERNMENT-FURNISHED SERVICES AND ITEMS IN SUPPORT OF
           SITE CLOSURE
A03DN002   DOE’S IMPLEMENTATION OF GOVERNMENT OUTSOURCING INITIATIVES
A03DN003   WESTERN AREA POWER ADMINISTRATION’S PATH 15 PROJECT
A03DN004   POWER MARKETING ADMINISTRATION INFRASTRUCTURE PROTECTION
A03DN005   POST-CLOSURE RESPONSIBILITIES AT ROCKY FLATS
A03DN032   RETENTION ALLOWANCES AT ROCKY FLATS OFFICE
A03FF004   POWER MARKETING ADMINISTRATION INVESTMENT ACTIVITIES
A03FF005   FOLLOWUP AUDIT OF GROUNDWATER MONITORING ACTIVITIES AT DOE
A03ID030   FUNDING FOR MISSION DEVELOPMENT ACTIVITIES AT INEEL
A03IF006   ADVANCED MIXED WASTE TREATMENT PROJECT AT INEEL
A03IF008   HUMAN RESOURCE MANAGEMENT AT INEEL
A03IF009   REVISED PIT 9 CLEANUP PLAN AT INEEL
A03LA012   CONTAINMENT VESSELS
A03LAO13   NUCLEAR MATERIALS STABILIZATION PROGRAM
A03LA014   HYDROTEST PROGRAM
A03LA015   DEFENSE TECHNOLOGIES
A03LA016   RECRUITMENT AND RETENTION PROGRAM AT LANL



                                      49
A03LL017   NONPROLIFERATION TECHNOLOGY IMPLEMENTATION
A03LL018   RUSSIAN PLUTONIUM PLANT CONVERSION
A03LL019   UPGRADE OF THE STANFORD SYNCHROTRON RADIOLOGICAL LAB
A03LL020   USE OF FACILITIES AND INFRASTRUCTURE AT LIVERMORE
A03LL021   CONSOLIDATION OF HYDRODYNAMIC TEST INFRASTRUCTURE
A03LL022   STOCKPILE LIFE EXTENSION PROGRAM
A03LV023   TOTAL SYSTEM LIFE CYCLE COSTS FOR SPENT NUCLEAR FUEL AND HIGH LEVEL
           WASTE
A03LV024   EXECUTION OF ROUTINE OPERATIONS AT THE NEVADA TEST SITE
A03LV025   TRANSPORTATION NEEDS WITHIN THE STATE OF NEVADA
A03NE007   FERC’S FORMULATION AND MONITORING OF REGIONAL TRANSMISSION
           ORGANIZATIONS
A03NE008   ISOTOPE PRODUCTION AND DISTRIBUTION PROGRAM
A03NE009   SAFEGUARDS AND SECURITY FUNDING AT DOE FIELD SITES
A03OR010   COLD STANDBY PROGRAM AT THE PORTSMOUTH GASEOUS DIFFUSION PLANT
A03OR011   COST SHARING AT THE WEST CHICAGO THORIUM PROCESSING FACILITY
A03OR012   ENVIRONMENTAL MANAGEMENT CLEANUP REFORM APPROPRIATION
A03OR013   REMEDIATION OF THE WASTE SILOS AND PITS AT FEMP
A03OR014   WASTE MANAGEMENT AT THE OAK RIDGE RESERVATION
A03PR010   NON-FEDERAL WORK AT SCIENCE LABORATORIES
A03PR011   CONSORTIUM BUYING BY DEPARTMENT CONTRACTORS
A03PR012   SCIENCE PROJECT COSTING PRACTICES
A03PR013   DISTRIBUTED ENERGY RESOURCES PROGRAM
A03PT014   DOE’S CARBON SEQUESTRATION PROGRAM
AO3PT015   DOE’S RECRUITMENT AND RETENTION EFFORTS
AO3RL015   PLUTONIUM FINISHING PLANT AT HANFORD
AO3RL016   GROUNDWATER/VADOSE ZONE INTEGRATION PROJECT AT HANFORD
A03RL017   WASTE RECEIVING AND PROCESSING FACILITY AT HANFORD
A03RL018   PLANNING FOR THE WASTE TREATMENT PLANT AT HANFORD
A03SC016   MANAGEMENT OF DIRECTED PROJECTS
A03SC017   OFFICE OF SCIENCE PERFORMANCE MEASURES
A03SC018   OFFICE OF SCIENCE GRANTS ADMINISTRATION
A03SC019   DOE'S NANOSCALE SCIENCE RESEARCH CENTERS
A03SR019   SAVANNAH RIVER SITE MEDICAL SERVICES
A03SR020   PERFORMANCE BASED INCENTIVES AT WESTINGHOUSE SAVANNAH RIVER
A03SR021   PIT DISASSEMBLY AND CONVERSION FACILITY AT SAVANNAH RIVER
A03SR022   REQUIREMENTS FOR TRITIUM
A03SR031   FOREIGN RESEARCH REACTOR SPENT NUCLEAR FUEL PROGRAM



                                      50
A03TG020    DOE’S ELECTRONIC COMMERCE STRATEGIES
A03TG023    CRITICAL ENERGY INFRASTRUCTURE PROTECTION
A03TG031    DOE’S UNCLASSIFIED INFORMATION SYSTEMS
A03TG032    DOE’S CLASSIFIED INFORMATION SYSTEMS
A03TG033    INTELLIGENCE COMMUNITY INFORMATION SYSTEMS
A03TG034    FERC INFORMATION SYSTEMS
A03TG035    DOE’S INTEGRATED SECURITY SYSTEM
A03TG036    IMPLEMENTATION OF THE INDICATIONS, WARNING, ANALYSIS AND REPORTING
            CAPABILITY
A03TG037    SENSITIVE EQUIPMENT ACCOUNTABILITY
A03YT026    RECONFIGURATION OF THE KANSAS CITY PLANT
A03YT027    ENRICHED URANIUM OPERATIONS
A03YT028    HIGHLY ENRICHED URANIUM MATERIALS STORAGE PROJECT AT Y-12



            Planned Fiscal Year 2003 GMRA Audits

A03FN001    DOE – FY 2003
A03FN002    ISOTOPE PRODUCTION DISTRIBUTION – FY 2003
A03FN003    DECOMMISSIONING AND DECONTAMINATION – FY 2003
A03FN004    FEDERAL ENERGY REGULATORY COMMISSION – FY 2003
A03FN005    WESTERN AREA POWER ADMINISTRATION – FY 2003


            Other Planned Fiscal Year 2003 Financial Audits
A03AL029    LOCKHEED MARTIN SANDIA CORP FY 2002 FINANCIAL CERTIFICATION
A03AL030    HONEYWELL FY 2002 FINANCIAL CERTIFICATION
A03DN023    MIDWEST RESEARCH FY 2002 FINANCIAL CERTIFICATION
A03FF024    ARGONNE NATIONAL LAB FY 2002 FINANCIAL CERTIFICATION
A03FF025    AMES FY 2002 FINANCIAL CERTIFICATION
A03IF0124   BECHTEL BWXT IDAHO FY 2002 FINANCIAL CERTIFICATION
A03FF006    WORKING CAPITAL FUND
A03FF007    FMFIA FY 2002
A03FF026    STRATEGIC PETROLEUM RESERVE FY 2002 FINANCIAL CERTIFICATION
A03LA031    LOS ALAMOS NATIONAL LABORATORY FY 2002 FINANCIAL CERTIFICATION
A03LL032    LAWRENCE LIVERMORE NATIONAL LABORATORY FY 2002 FINANCIAL
            CERTIFICATION

A03LL033    ROCKET DYNE FY 2002 FINANCIAL CERTIFICATION



                                       51
A03OR025   UT-BATTELLE FY 2002 FINANCIAL CERTIFICATION
A03OR026   OAK RIDGE ASSOCIATED UNIVERSITY FY 2002 FINANCIAL CERTIFICATION
A03OR027   BECHTEL JACOBS FY 2002 FINANCIAL CERTIFICATION
A03RL028   BATTELLE MEMORIAL FY 2002 FINANCIAL CERTIFICATION
A03SR029   WESTINGHOUSE SRS FY 2002 FINANCIAL CERTIFICATION
A03YT035   BWXT Y-12 FY 2002 FINANCIAL CERTIFICATION


Office of Inspections

National Security
INSPECTION TITLE
NUMBER

           Carry-In
S02IS041   FY 2002 FOURTH QUARTER INTELLIGENCE OVERSIGHT
S02IS040   DOE AIRCRAFT SUPPORT OF THE JOINT TECHNICAL OPERATIONS TEAM
S02IS039   FIREARMS INTERNAL CONTROLS
S02IS038   LAPTOP COMPUTER INTERNAL CONTROLS
S02IS037   DEPARTMENT’S VISA PROGRAM
S02IS036   DOE AIRCRAFT SECURITY
S02IS035   HAZARDOUS/TOXIC CHEMICAL SECURITY
S02IS034   REVIEW OF INTERNATIONAL MEMORANDUM OF UNDERSTANDING
S02IS031   SECURITY ISSUES
S02IS030   MEMORANDUMS OF AGREEMENT AT A SELECTED DOE SITE
S02IS028   SPECIAL NUCLEAR MATERIALS RECEIVED FROM FOREIGN COUNTRIES
S02IS027   SECURITY OF SPECIAL NUCLEAR FUELS SHIPMENTS
S02IS021   FORCE-ON-FORCE RECOMMENDATIONS
S02IS017   REVIEW OF NUCLEAR WASTE SECURITY
S02IS013   SAFEGUARDS AND SECURITY SURVEY
S02IS012   EXPLOSIVES TRANSPORTATION AND SECURITY
S02IS005   TRANSPORTATION SECURITY
S02IS001   EXPLOSIVES SAFETY



           Planned
           REVIEW OF EXPORT OF MILITARY SENSITIVE TECHNOLOGIES
           PHYSICAL SECURITY REQUIREMENTS OF BIOAGENTS


                                       52
           DEPARTMENT AVIATION SUPPORT
           SENSITIVE INFORMATION ON DEPARTMENT WEBSITES
           FOLLOW-UP ON PRIOR EXPORT CONTROL RECOMMENDATIONS
           PERSONNEL RELIABILITY PROGRAM AT SELECTED DOE SITES
           ROLE OF COUNTERINTELLIGENCE IN DOE’S COUNTERTERRORISM EFFORTS
           COMPLIANCE WITH INTELLIGENCE REQUIREMENTS AT A SELECTED FIELD SITE
           DEMILITARIZATION OF EXCESS MILITARY EQUIPMENT
           OVERSIGHT OF SHOCK SENSITIVE CHEMICALS AT SELECTED DOE SITE
           EXPORT CONTROL OF SENSITIVE INFORMATION ON GRANTS/WORK-FOR-OTHERS
           MEMORANDUMS OF AGREEMENT AT A SELECTED SITE
           FY 2003 FIRST QUARTER INTELLIGENCE OVERSIGHT REVIEW
           FY 2003 SECOND QUARTER INTELLIGENCE OVERSIGHT REVIEW
           FY 2003 THIRD QUARTER INTELLIGENCE OVERSIGHT REVIEW
           FY 2003 FOURTH QUARTER INTELLIGENCE OVERSIGHT REVIEW



           Corporate Management

INSPECTION TITLE
NUMBER

           Carry-In
S02IS026   EMERGENCY RESPONSE AND LAW ENFORCEMENT-RELATED GRANTS
S02IS015   FUNDING AND LEASING ISSUES
S02IS003   PROCUREMENT ISSUES
S01IS034   TRANSPORTATION PROCUREMENT
S01IS032   DIRECTING OF SUBCONTRACT TASKS
S02IS029   REMARKETING CONCERNS

           Planned
           EVALUATION OF GRANTS AND COOPERATIVE AGREEMENTS AT SELECTED DOE
           SITE

           DISPOSITION OF ASSETS AT SELECTED DOE SITE




                                        53
Environmental Quality
INSPECTION   TITLE
NUMBER

             Carry-In
S01IS022     REPORTABLE INCIDENT REPORTS
S01IS030     NUCLEAR SAFETY RULES


Energy and Science
INSPECTION   TITLE
NUMBER

             Carry-In
S01IS016     IN-HOUSE ENERGY MANAGEMENT




                                      54
                                                                    Appendix A




        Validation and Verification

The chart below represents how the OIG validates and verifies its performance
activities.


   Data Sources:                          OIG Semiannual and Quarterly Reports
                                          to Congress; Inspector General Act of
                                          1978, as amended; Government
                                          Management Reform Act; Government
                                          Performance and Results Act;
                                          Government Information Security
                                          Reform Act; False Claims Act;
                                          Executive Order 12863, “President’s
                                          Foreign Intelligence Advisory Board
   Frequency:                             Annually/Semiannually/Quarterly
   Data Storage:                          OIG Energy Inspector General Project
                                          Tracking System
   Verification:                          OIG policies and procedures; Yellow
                                          Book Standards; PCIE Quality
                                          Standards for Investigations and
                                          Inspections; and internal and external
                                          peer reviews.




                                     55
                                                                     Appendix B




  Cross-Cutting Program Activities

In performing its mission, the OIG undertakes many of its activities with other
external organizations to achieve a common goal. Such organizations include:

     − Federal prosecutors in the Department of Justice and United States
       Attorneys Offices throughout the country;
     − The Defense Contract Audit Agency;
     − The General Accounting Office;
     − Other law enforcement agencies on task force/joint agency
       investigations;
     − State and local prosecutors;
     − Other Federal agency OIGs for mandated export control reviews;
     − The Intelligence Oversight Board on intelligence matters concerning
       violations of law, Executive order, Presidential directive, or
       Department Intelligence Procedures;
     − Intelligence community OIGs for interagency reviews of intelligence
       issues; and
     − The PCIE and its committees.




                                       56
